           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Audit Announcement—Agency                       Date:   October 19, 2009
           Review of the Department of Transportation’s
           Acquisition Function
           Project No. 10Z3001Z000


  From:    Mark H. Zabarsky                                          Reply to   JA-60
                                                                     Attn of:
           Assistant Inspector General for Acquisition and
           Procurement Audits

    To:    Secretary of Administration

           The Office of Inspector General is initiating an audit of the Department of
           Transportation’s (DOT) acquisition function. We will begin work at the Office of
           the Secretary and may expand our work to other Operating Administrations across
           DOT. This effort is part of our risk-based oversight strategy developed to help
           DOT address management challenges in their acquisition function.

           Recently, President Obama called on Federal agencies to improve the
           effectiveness of their acquisition practices in order to achieve better results from
           their contracts. With about $6 billion of taxpayer funds spent each year on goods
           and services, it is essential that DOT acquisition be handled in an efficient,
           effective, and accountable manner.

           In May 2008, the Office of Management and Budget (OMB) and the Chief
           Acquisition Officers Council promoted a framework to standardize the approach
           Federal agencies use to assess internal control over acquisition activities and
           programs. This framework enables high-level, quantitative assessments of the
           strengths and weaknesses of the acquisition function while considering four
           elements that are essential to an efficient, effective, and accountable acquisition
           process: (1) organizational alignment and leadership, (2) policies and processes,
           (3) human capital or acquisition workforce, and (4) knowledge and information
           management.

           Our objective is to assess DOT’s acquisition function and identify vulnerabilities
           that could impact DOT’s ability to implement an effective and efficient approach
consistent with best practices, including OMB guidelines on conducting
acquisition assessments under Circular A-123.

We will contact your audit liaisons to schedule an entrance conference. If you
have any questions or need additional information, please contact Anthony
Wysocki, Program Director, at 202-439-0223 or Ann Wright, Project Manager, at
202-366-1433.



                                      #

cc:   Senior Procurement Executive, M-60
      Martin Gertel, M-1
